           STATUTORY AND ADMINISTRATIVE
                 RESPONSIBILITIES

The Inspector General Act of 1978 (Public Law 95-452), as amended, sets forth specific re-
quirements for semiannual reports to be made to the Chairman for transmittal to the Con-
gress. A selection of other statutory and administrative reporting and enforcement respon-
sibilities and authorities of the Office of Inspector General (OIG) are listed below:

                    OIG AUDIT AND MANAGEMENT REVIEW
Public Law (P.L.) 97-255    Federal Managers’ Financial Integrity Act of 1982
P.L.          1041-34       Debt Collection Improvement Act of 1996
P.L.          101-576       Chief Financial Officers Act of 1990
P.L.          102-486       Energy Policy Act of 1992
P.L.          103-62        Government Performance and Results Act of 1993
P.L.          103-355       Federal Acquisition Streamlining Act of 1994
P.L.          103-356       Government Management Reform Act of 1994
P.L.          104-106       Information Technology Management Reform Act of 1996
P.L.          104-208       Federal Financial Management Improvement Act of 1996
General Accounting Office Government Auditing Standards


             CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES
Title 5                     United States Code, section 552a
Title 18                    United States Code, sections on crime and criminal
                            procedures as they pertain to OIG’s oversight of departmental
                            programs and employee misconduct
Title 31                    United States Code, section 3729 et seq., the False Claims Act
                                                                     ig
                                             October 2002 SemiAnnual Report




                                           TABLE OF CONTENTS
                                                                                                                                             Page

COMMISSION’S TOP MANAGEMENT CHALLENGES . . . . . . . . . . . . . . . . . . . . . .                                                                  1
 Information Technology Management and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                             1
 Human Capital and Staffing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       2
 Performance Management, Measurement and Accountability . . . . . . . . . . . . . . . . . . .                                                       4

COMMISSION’S ORGANIZATIONAL STRUCTURE . . . . . . . . . . . . . . . . . . . . . . . . .                                                             6

COMMISSION PROFILE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            7

THE OFFICE OF INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                 9

AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   10
 Audit Report List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           10
 Summary of Significant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         10
   Evaluation of the U.S. International Trade Commission’s Information Security
     Program and Practices, Audit Report
       OIG-AR-02-02 (September 13, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                   10
   Evaluation of the Commission’s Travel Program, Audit Report
    OIG-AR-03-02 (September 30, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  12

AUDIT FOLLOW-UP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    14
 Planning Process for the Commission’s Research Program, Audit Report
   OIG-AR-01-02 (March 29, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             14
 Evaluation of the U.S. International Trade Commission’s Information
   Security Program, Audit Report OIG-AR-02-01 (September 10, 2001) . . . . . . . . .                                                              14
 Evaluation of the USITC’s Records Management, Audit Report
   OIG-AR-05-00 (March 7, 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          15
 Evaluation of the Commission’s Implementation of E-FOIA, Audit Report
   OIG-AR-01-01 (March 20, 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             15
 Review of the Commission’s Information Resources Management Function,
   Audit Report OIG-AR-01-00 (September 29, 2000) . . . . . . . . . . . . . . . . . . . . . . . . . . .                                            15

INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
  Inspection Report List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
    U.S. International Trade Commission’s Policies and Procedures Related
      to the Rural Development Act (RDA) of 1972, Inspection Report
      OIG-IR-01-02 (September 23, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                                                                          i
                                                                 ig
                                           October 2002 SemiAnnual Report




                           TABLE OF CONTENTS-Continued
                                                                                                                                      Page

INSPECTIONS—Continued
   U.S. International Trade Commission’s Administration of WestlawR
     Legal Research Service, Inspection Report OIG-IR-02-02
     (September 25, 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

OTHER ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            22
 Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          22
 General Accounting Office (GAO) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    22
 Liaison Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   23

REPORTING REQUIREMENTS INDEX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

TABLE 1 AUDIT REPORTS WITH QUESTIONED COSTS . . . . . . . . . . . . . . . . . . . 26

TABLE 2 AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE
 PUT TO BETTER USE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28




                                                                      ii
                                          ig
                           October 2002 SemiAnnual Report




                      COMMISSION’S TOP
                   MANAGEMENT CHALLENGES
The “Top Management Challenges” facing the International Trade Commission
(Commission/ITC) as identified by the Office of Inspector General (OIG)—as well as recent
OIG activities relating to each challenge—are discussed below. Through audits,
inspections and other assistance, the OIG has been helping the Commission to address
these challenges.


        Information Technology Management and Security
Rapidly evolving information technology, particularly in networking and
telecommunications, presents the Commission with opportunities for modernizing its
information and management systems. Further automating the Commission’s business
processes should promote greater economy and efficiency while freeing human capital for
more effective planning, evaluation and research. Likewise, the application of modern
web-based information architectures can enhance the way the Commission interacts with
its customers and the public.
Every Commission business process—investigations, trade policy studies, technical
assistance, and administration—depends on reliable and effective information systems
and services. Near the end of fiscal year (FY) 2001, the Commission finalized a Strategic
Plan for Information Resources Management (IRM Strategic Plan) that should help the
agency move toward the goals of improved technology management and better service to
the public as set out in the Information Technology Management Reform Act of 1996
(Clinger-Cohen Act) and the Government Paperwork Elimination Act (GPEA). The IRM
Strategic Plan addresses how information resources should support fulfillment of the
Commission’s mission, and it is closely linked to the Commission’s overall Strategic Plan.
The Commission’s challenge is to coordinate within its offices and activities a shared vision
to constantly improve its business processes by applying modern information technology.
In response to an OIG audit recommendation, the Commission has taken steps to appoint
a Chief Information Officer (CIO) including appointment of an acting CIO. Such leadership
can assure that information technology is just as applicable to customer relations
management as it is to administrative processes, like accounting, to which it has
traditionally been applied.




                                             1
                                         ig
                           October 2002 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued

The information that the Commission processes and generates is a valuable asset that
management must protect from loss, misuse, unauthorized access or modification. The
challenge the Commission faces in providing such protection is how to apply adequate
resources to ensure sufficient information security. Although much of this information is
in electronic form, it resides in a variety of hardware platforms and software applications,
accessible through various communications links. Although the Commission has avoided
work disruption or losses due to cyber-crime, the Commission’s data could be susceptible
both to physical and electronic threats.

Congress enacted the Government Information Security Reform Act (GISRA) in 2000 to
help federal organizations protect government information resources. GISRA provides that
each agency centralize information security management under its CIO. The need for
centralized information security management results, in part, from the highly
interconnected nature of modern information systems. While in the process of establishing
its own CIO office, the Commission has appointed an Information Security Officer to
coordinate the information security program with the acting CIO.

Another important provision of GISRA is that agency Inspectors General conduct an
annual independent evaluation of their agency’s information security program and
practices. This evaluation is to include appropriate tests of information security controls
and an assessment of agency compliance with GISRA requirements and related
information security policies, procedures, standards and guidelines. Accordingly, we
conducted a comprehensive audit of the Commission’s information security program,
summarized on page 10. We plan to further evaluate selected aspects of the Commission’s
information security program in FY 2003. In addition, the OIG has met weekly with the
acting CIO and the Information Security Officer to monitor progress implementing
planned information security improvements.



                         Human Capital and Staffing
Human capital is the Commission’s largest resource, with salaries and personnel benefits
representing 71 percent of the FY 2002 budget. The Commission maintains an expert staff
of professional international trade and nomenclature analysts, investigators, attorneys,
economists, computer specialists and administrative support personnel. All employees are
located at 500 E Street, SW, Washington, DC 20436. At the end of FY 2002, the
Commission employed a total of 365.6 permanent employees.

                                             2
                                          ig
                            October 2002 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
The Commission faces a continuing challenge in matching its workforce to its workload.
The Commission’s unique mission and functions as well as external factors make workload
forecasting difficult. For example, the Commission’s caseload in the area of complaints
under section 337 of the Tariff Act of 1930, Investigations of Unfair Practices in Import
Trade more than doubled in less than two years, and this heavy caseload is expected to
continue. In addition, section 337 investigations have become progressively more complex
because a large number of investigations involve high-technology products or processes.
Furthermore, the Commission continues to be an active participant in the negotiation and
implementation of trade agreements. World Trade Organization (WTO) dispute and
litigation issues are having an increasing impact on the agency, as Commission attorneys
assist the United States Trade Representative (USTR) in consultations, in drafting briefs
and other submissions, and in hearings before WTO dispute panels and the WTO Appellate
Body. Also, the Commission continues to provide substantial assistance to Congressional
policymakers in their consideration of a wide range of trade policy issues. WTO trade
liberalization negotiations, the increased pace of the Free Trade Agreement of the Americas
negotiations, China’s accession to the WTO, and various other emerging trade issues will
likely result in increasing demand for the Commission’s technical advice and assistance to
policymakers in the Executive Branch and Congress.
Whether the Commission’s workload continues to increase or not, it faces a workforce
challenge common to most federal entities: retirement eligibility. We found that by 2005,
nearly one third of the Commission’s workforce—including half of its supervisors—will be
eligible for regular retirement. The Commission, possibly faced with losing its most
experienced employees, will be challenged to preserve workforce knowledge and skills.
If there is a positive aspect to the retirement eligibility dilemma, it is that the Commission
has a near term opportunity for management realignment. The Commission could
streamline management by not replacing some retiring supervisors. Since much of the
Commission’s investigative and research work is being done by multi-disciplinary teams
from various offices, these offices could be realigned from hierarchical to team structures.
Another possibility is to realign offices to better reflect the Commission’s five strategic
operations.
Six months ago, the OIG assessed the Commission’s family-friendly programs—those
programs promoted by the Office of Personnel Management’s Office of Family-Friendly
Advocacy—in terms of their compliance with statutory and executive level guidance and
whether they meet the needs of Commission employees. In our inspection report



                                              3
                                         ig
                           October 2002 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
Assessment of the Commission’s Family-Friendly Programs, Inspection Report,
OIG-IR-06-01 (March 27, 2002) http://www.usitc.gov/oig/OIG-IR-06-01.pdf, we
commended the Commission’s progress in implementing most of these programs and
suggested that the Commission use survey results to enhance programs to meet employee
needs. On September 24, 2002, the Commission’s Labor Management Partnership Council
sponsored several family-friendly initiatives in reference to our inspection report. The
Commission subsequently approved:
       j work schedules starting as early as 6:00 am, to lessen commuter traffic and to
         allow parents to be home when school is over;
       j a 4-4/10 work schedule to give employees greater flexibility;

       j further enhancements to encourage telecommuting; and
       j annual surveys of employee needs and improved orientation for new employees.


 Performance Management, Measurement and Accountability
The Commission is committed to performance-based management as embodied in the
Government Performance and Results Act (GPRA). The challenge for the Commission has
been to go beyond performance–based management as an element of high level planning
to performance-based management as an actual day-to-day management culture that is
interwoven into all aspects of the Commission’s operations. This requires not only a clear,
understandable definition of the Commission’s strategic goals and objectives, but also their
translation into supporting goals and objectives for individual offices and individual
employees. Once this translation has occurred, there is a need for continuous measurement
and evaluation of performance at all levels to assess progress toward goal attainment and
to adjust allocation of resources as necessary.

The Commission has made progress in meeting this challenge. Beginning in FY 2000, the
Commission implemented a budget structure that allowed nearly all activity costs to be
allocated among its five strategic operations. This has enabled the Commission to readily
identify and control the resources allocated to the various strategic operations.
Like other federal entities, the Commission is challenged to redesign its business processes
to take advantage of modern information technology and management techniques. The
President’s Management Agenda includes five government-wide initiatives—competitive
sourcing, improved financial performance, budget and performance integration, expanded

                                             4
                                         ig
                           October 2002 SemiAnnual Report




COMMISSION’S TOP MANAGEMENT CHALLENGES—Continued
electronic government, and strategic management of human capital—that the Commission
has addressed to varying degrees to improve the quality of its performance and delivery of
services to the public. Redesigning these processes to allow more automation and electronic
processing can lead to significant improvements in economy and efficiency. Proactive
processes, designed to incorporate improved planning methodology, can lead to a workforce
that is both more productive and more responsive to customer needs.
Additionally, this year the Commission agreed to make improvements in its Research
Program as a result of an OIG audit. The knowledge and skills developed by the
Commission’s staff through the Research Program are used to support the Commission’s
other operations and provide immediate assistance to the Congress and the Executive
Branch on trade issues. While the Commission established a plan for the Research Program
that contained strategic goals, general strategies and critical success indicators, the OIG
audit found that improvements were needed to identify and prioritize future projects while
ensuring resources are effectively used. The OIG made three recommendations to
strengthen the Research Program and the actions listed by management met the
recommendations’ intent (see page 14).




                                            5
                                                                                       ig
                                                            October 2002 SemiAnnual Report




                                      COMMISSION’S ORGANIZATIONAL STRUCTURE

                                                  U.S. International Trade Commission




                                                                                     Chairman
                                                                               COMMISSION




    Office of the                                                                                Administration        Office of the              Office of        Office of
                           Operations                                      Office of
   Administrative                                   Office of the                                   Office of            General                 Inspector          Equal
                           Office of the                                   External
    Law Judges                                       Secretary                                    the Director          Counsel                   General         Employment
                             Director                                      Relations                                                                              Opportunity
                                                                         Trade Remedy
                                                                         Assistance Office

                                                                                                                                            Employee
                                                                                                                                           Development



                          Office of                                     Office of                   Office of                                                   Office of
   Office of                                       Office of                                                             Office of            Office of
                         Industries                                   Information                   Finance                                                    Facilities
  Economics                                     Investigations                                                          Personnel            Publishing
                                                                        Services                                                                              Management




                         Office of
                       Tariff Affairs              Office of
                        and Trade               Unfair Import
                       Agreements               Investigations



Budget Committee                                                                                       Information Resources Management Steering Committee (IRMSC)
   Authority: Adm. Order 00-06, dated 7/26/00                                                             Authority: Adm. Order 00-08, dated 8/25/00

                                                                                                       Labor-Management Occupational Safety and Health Committee
Directives Review Committee                                                                              Authority: Adm. Order 02-03, dated 1/10/02
    Authority: CO71-U-004, dated 7/11/97

Document Imaging Oversight Committee (DIOC)                                                            Labor-Management Partnership Council
   Authority: Adm. Order 96-06, dated 3/15/96                                                            Authority: Adm. Order 02-05, dated 2/13/02

Executive Resources Board (ERB)                                                                        Strategic Planning Committee (SPC)
   Authority: Adm. Order 02-10, dated 9/12/02                                                             Authority: Adm. Order 02-08, dated 5/3/02

Incentive Awards Committee (IAC)                                                                       Senior Executive ServicePerformance Review Board (PRB)
    Authority: Adm. Order 92-27, dated 7/2/92 and Adm. Order 97-02, dated 10/15/96                       Authority: Adm. Order 02-09, dated 7/15/02




                                                                                             6
                                        ig
                          October 2002 SemiAnnual Report




                        COMMISSION PROFILE
                          http://www.usitc.gov
The Commission is an independent, nonpartisan, quasi-judicial federal agency established
by Congress to provide trade expertise to both the Legislative and Executive Branches of
government. Its mission is to: administer U.S. trade remedy laws within its mandate in a
fair and objective manner; provide the President, USTR and the Congress with
independent, quality analysis, information, and support on matters of tariffs and
international trade and competitiveness; and maintain the Harmonized Tariff Schedule of
the U.S. In so doing, the Commission serves the public by implementing U.S. law and
contributing to the development of sound and informed U.S. trade policy. Major
Commission activities include:

       j Import Injury Investigations –The Commission makes determinations in a
         variety of import injury investigations, primarily antidumping and
         countervailing duty (AD/CVD) investigations concerning the effects of unfairly
         traded imports on a U.S. industry.

       j Intellectual Property–Based Investigations–The Commission adjudicates
         complaints brought by domestic industries under section 337 of the Tariff Act
         of 1930 that allege infringement of U.S. intellectual property rights and other
         unfair methods of competition by imported goods.

       j Research–The Commission’s research program consists of probable economic
         effects investigations under section 131 of the Tariff Act of 1930; analysis of
         trade and competitiveness issues under section 332; and independent
         assessments on a wide range of emerging trade issues.

       j Trade Information Services–The Commission’s trade information services
         include such activities as trade remedy assistance; library services; legislative
         reports; maintenance of the Harmonized Tariff Schedule; Schedule XX; U.S.
         Schedule of Services Commitments under the General Agreement on Tariffs and
         Trade/World Trade Organization; preparation of U.S. submissions to the
         Integrated Database of the World Trade Organization; and certain other
         information gathering, processing, and dissemination activities.

       j Trade Policy Support–The Commission supports the formulation of U.S.
         trade policy, providing objective input to both the Executive Branch and the
         Congress on the basis of the distinctive expertise of its staff.

                                            7
                                        ig
                           October 2002 SemiAnnual Report




COMMISSION PROFILE—Continued
The Commission has six Commissioners, appointed by the President and confirmed by the
Senate, who serve one term of nine years, unless appointed to fill an unexpired term. No
more than three Commissioners may be of the same political party. The Chairman and Vice
Chairman are designated by the President and serve a 2-year statutory term. The
Chairman is responsible, within statutory limits, for the administrative functions of the
Commission.
The current Commissioners are Deanna Tanner Okun, Jennifer A. Hillman, Lynn M.
Bragg, Marcia E. Miller, and Stephen Koplan. One position is vacant. The current
Chairman is Deanna Tanner Okun and the current Vice Chairman is Jennifer A. Hillman.
In FY 2002, the Commission had $52.8 million in available funds ($51.44 million
appropriation) and a staffing plan for 395.5 permanent positions and 7.7 term/temporary
positions. All employees are located in one building at 500 E Street, SW, Washington, DC.




                 Deanna Tanner Okun                  Jennifer A. Hillman
                     Chairman                          Vice Chairman




                                           8
                                                   ig
                                   October 2002 SemiAnnual Report




              THE OFFICE OF INSPECTOR GENERAL
                     http://www.usitc.gov/oig
The Commission established the OIG pursuant to the 1988 amendments to the Inspector
General Act. The Inspector General reports directly to the Chairman. The Inspector
General is responsible for directing and carrying out audits, investigations, and inspections
relating to Commission programs and operations. The Inspector General also comments
and provides recommendations on proposed legislation, regulations, and procedures as to
their economy, efficiency and effectiveness.
As shown in the organizational chart, the OIG had three full-time positions and one
part-time position in FY 2002.


                              Office of Inspector General: Organization
  Full-time

            Inspector General



                                                                                                 Part-time

     Assistant Inspector
                                    Paralegal Specialist                                   Counsel to the
      General for Audit
                                                                                         Inspector General



For FY 2002, the OIG was allocated 3.5 staff years. This provided for three full-time
positions (Inspector General, Assistant Inspector General for Audit, and Paralegal
Specialist) and one part-time position (Counsel to the Inspector General). The Commission
also allocated $100,000 for OIG contracted audit and review services for FY 2002. Under
the Commission’s summer intern program, the OIG hired two paralegal specialists, each
for a term of 10 weeks.




Richard Rho joined the OIG staff                       Teresa Rogers joined the OIG staff on
on May 20, 2002, and worked                            June 3, 2002 and worked through
through July 26, 2002.                                 August 9, 2002.




                                                      9
                                             ig
                             October 2002 SemiAnnual Report




                                         AUDITS
                                  Audit Report List
We issued two audit reports during this period:
       j OIG-AR-02-02, Evaluation of the U.S. International Trade Commission’s
         Information Security Program and Practices (see page 10)
       j OIG-AR-03-02, Evaluation of the Commission’s Travel Program (see page 12)
Generally, the Commission made progress in implementing pending actions recommended
in five reports from our last semiannual report:
       j OIG-AR-01-02, Planning Process for the Commission’s Research Program
         (see page 14)
       j OIG-AR-02-01, Evaluation of the U.S. International Trade Commission’s
         Information Security Program (see page 14)
       j OIG-AR-05-00, Evaluation of USITC’s Records Management (see page 15)
       j OIG-AR-01-01, Evaluation of the Commission’s Implementation of E-FOIA
         (see page 15)
       j OIG-AR-01-00, Review of the Commission’s                       Information     Resources
         Management Function (see page 15)


                            Summary of Significant Audits
       j Evaluation of the U.S. International Trade Commission’s Information
         Security Program and Practices, OIG–AR–02–02 (September 13, 2002)
         http://www.usitc.gov/oig/OIG–AR–02–02.pdf
The Government Information Security Reform Act (GISRA), enacted in October 2000,
required agencies to develop and implement plans, policies and procedures to provide
adequate security of information resources commensurate with assessed risks. In general,
GISRA:
       Codified existing U.S. Office of Management and Budget (OMB) security policies, including
       those specified in Circular A-130, Management of Federal Information Resources, Appendix
       III, and
       Reiterated security responsibilities outlined in the Computer Security Act of 1987, GPEA, and
       the Clinger-Cohen Act.

                                               10
                                        ig
                          October 2002 SemiAnnual Report




AUDITS—Continued
In Fiscal Years 2001 and 2002, GISRA required agency OIGs to conduct an annual
independent evaluation of the information security program and practices of their agency.
Our objectives this year were to determine if the Commission: (1) implemented appropriate
actions to address recommendations made in our audit report Evaluation of the U.S.
International Trade Commission’s Information Security Program, OIG–AR–02–01
(September 10, 2001); and (2) met GISRA criteria. We conducted this audit in accordance
with the methodology outlined in the GAO’s Federal Information System Controls Audit
Manual (FISCAM). Our evaluation also used the National Institute of Standards and
Technology (NIST) Special Publication 800-26, Security Self-Assessment Guide for
Information Technology.
Our audit recognized the Commission’s significant progress in strengthening its
information security program during FY 2002. Among its most notable accomplishments,
the Commission:
       j Filled the CIO position on an interim basis with an Acting CIO;
       j Conducted a series of security awareness training classes and required all
         Commission and contractor personnel to attend;
       j Filled the Information Security Officer position;
       j Created and installed a security warning banner on its network;
       j Developed initial draft security plan, program, and risk assessment templates;
       j Established and implemented physical access controls to the computer room;
         and
       j Developed a draft system development life cycle methodology and program
         configuration management document.
However, the Commission needed to take further action to be consistent with OMB Circular
A-130, Appendix III. Specifically, the Acting CIO needs to complete action on the open
recommendations in OIG audit report OIG-AR-02-01, Evaluation of the U.S. International
Trade Commission’s Information Security Program (September 10, 2001). Of the 19
recommendations made in this report, the Commission resolved 3, but 16 remained
open—14 partially resolved and 2 not started. We also found 5 additional weaknesses and
1 partially resolved weakness previously identified in OIG audit report OIG-AR-01-00,
Review of the Commission’s Information Resources Management Function (September 29,
2000).

                                          11
                                        ig
                          October 2002 SemiAnnual Report




AUDITS—Continued
Based on this year’s audit, we made 4 recommendations for how the Commission might
most effectively resolve the open recommendations, and we made 12 additional
recommendations to address the Commission’s need to: enhance in-house technical
support; configure network user accounts to ensure compliance with security policy;
establish network restoration procedures; enhance system controls to prevent
unauthorized activities by internal sources; and modify the travel management system to
avoid use of Social Security numbers for user identification.
In general, the Commission concurred with our findings and recommendations. In
accordance with GISRA, the Commission provided a detailed plan of action to OMB on
October 1, 2002, which addressed our recommendations. This plan of action will serve as
the basis for our audit follow up.
       j Evaluation of the Commission’s Travel Program, OIG–AR–03–02
         (September 30, 2002) http://www.usitc.gov/oig/OIG–AR–03–02.pdf
The Commission’s Director of Operations and the Travel and Transportation Management
Officer requested an audit of the Travel Program. Further, they requested that OIG
examine the Commission’s travel policy and procedures in light of the Commission’s
transition to the Zegato automated system. Subsequently, the OIG answered a request
from Senator Charles Grassley to provide information on our prior audits and
investigations of the Commission’s Travel Program, including use of travel cards.
The objective of this audit was to evaluate the Commission’s Travel Program regarding
temporary duty (TDY) travel and transportation expenses. Specifically, the audit was to
determine whether the Commission established and communicated travel requirements
and procedures to all employees, including approving officials and implemented sufficient
internal controls to monitor and adequately control travel expenditures so as to minimize
fraud, waste and abuse.
The Commission strengthened its controls over the Travel Program by implementing an
automated travel management system, Zegato, for processing travel plans and expenses.
Also, the Commission surveyed employee satisfaction with Zegato and shared the survey
results both with the employees and with the Zegato vendor. Building on these positive
efforts, further action was needed to strengthen the Travel Program.




                                          12
                                        ig
                          October 2002 SemiAnnual Report




AUDITS—Continued
The audit disclosed instances in which employees inappropriately used their
government-sponsored travel cards; paid their bills late; filed expense reports late; and
failed to retain supporting documentation. Due to the frequency and type of use, the
auditors referred three employees’ travel card activity for OIG investigation.
The Commission concurred and planned actions to meet the intent of our recommendations
as follows:
       j Develop and implement a process to ensure that policies and procedures posted
         on the Travel web page are approved by the Commission and that an updated
         Official Temporary Duty Travel Handbook is issued.
       j Assign an individual with the responsibility to: (a) monitor travel card use and
         payments to ensure the card was used for approved official government travel
         and expenses were paid timely; (b) refer violations for supervisory action; and
         (c) perform a quality review on completed travel documentation.
       j Remind the Commission’s supervisors and staff of Directive 4504.0, Personnel
         Disciplinary and Adverse Action and develop a mechanism to monitor the status
         and final action on cases referred to a supervisor. Additionally, consider
         requiring a split-disbursement on future travel expenses for employees who
         have been delinquent in paying the government’s travel card contractor.
       j Issue an Administrative Order directing supervisors to identify and
         communicate each cardholder’s planned travel in order to have the cardholder’s
         authorized charge limit modified accordingly.
       j Discontinue offering Centrally Billed Accounts (CBAs). For those currently
         holding CBA travel cards, information on the split-disbursement process should
         be provided to encourage those cardholders to obtain an individual travel card.
       j Periodically survey the Zegato users and provide feedback to ensure continued
         improvement of customer satisfaction.




                                          13
                                         ig
                          October 2002 SemiAnnual Report




                           AUDIT FOLLOW-UP
During this reporting period, the Commission completed pending actions on one audit from
our last semiannual report:
Planning Process for the Commission’s Research Program, OIG-AR-01-02
(March 29, 2002) http://www.usitc.gov/oig/OIG–AR–02–02.pdf
       j Include an internal and external solicitation of proposed projects for the annual
         plan, a rationale for the proposed project, and identification of resources needed
         for the project. A schedule should be prepared identifying the ongoing projects
         and newly selected projects in priority order.
       j Add a performance indicator that can be linked to the budget, actual costs and
         management challenges, such as the need to be flexible and respond rapidly to
         conduct anticipated projects. This performance indicator should supply
         sufficient and reliable data to support program management and budgeting of
         the Research Program.
       j Direct staff to record their time by project, including customer assistance, and
         ensure that the time and attendance system captures the data necessary for
         planning, accountability, and performance measurement to measure efficiency
         and cost effectiveness.
All agreed upon actions were completed by September 16, 2002.
Pending actions remained open on recommendations reported in the previous semiannual
report for the following four audits at the end of the reporting period:

Evaluation of the U.S. International Trade Commission’s Information Security
Program, OIG-AR-02-01 (September 10, 2001)
http://www.usitc.gov/oig/OIG-AR-02-01 .pdf
This audit resulted in 19 recommendations, all of which were agreed to by management.
Three recommendations have been implemented. Also, in accordance with GISRA, the
Commission provided a detailed plan of action to OMB on October 31, 2001 which
addressed our recommendations. Our recommendations for improving the Commission’s
Information Security Program were intended to:
       j Require development and implementation of a comprehensive entity-wide
         information security plan that includes all ITC support systems and major
         applications.

                                           14
                                        ig
                          October 2002 SemiAnnual Report




AUDIT FOLLOW-UP—Continued
       j Bring ITC into conformance with GISRA, OMB Circular A-130, and other
         applicable information security guidance.
       j Resolve identified weaknesses in the Commission’s information security plans,
         policies, procedures and controls.
The results of the current year’s GISRA audit are discussed on page 10.
Evaluation of USITC’s Records Management, OIG-AR-05-00 (March 7, 2001)
http://www.usitc.gov/oig/OIG-AR-05-00 .pdf
This audit resulted in 22 recommendations, all of which were agreed to by management.
As of October 1, 2002, 21 recommendations had been implemented. The Commission has
been working with NARA so approval of the one recommendation is expected.
       j Identify records scanned by EDIS so they can be disposed.
Evaluation of the Commission’s Implementation of E-FOIA, OIG-AR-01-01
(March 20, 2001) http://www.usitc.gov/oig/OIG-AR-01-01.pdf
This audit resulted in five recommendations, all of which were agreed to by management.
One recommendation has not yet been implemented but the Commission has issued a
notice of proposed rulemaking that addressed the recommendation.
       j Amend 19 CFR 201.17-21 to emphasize FOIA affirmative access provisions.
Review of the Commission’s Information Resources Management Function,
OIG-AR-01-00 (September 29, 2000) http://www.usitc.gov/oig/OIG-AR-01-00.pdf
This audit resulted in six recommendations for improving the Commission’s Information
Resources Management (IRM). Management agreed to these recommendations, but four
have not yet been fully implemented. A summary of the recommendations not yet
implemented is as follows:
       j Place existing IRM-related offices under the direction of the CIO.
       j Strengthen the IRM Committee.
       j Improve the management of the Commission’s IRM personnel.
       j Improve information security planning.




                                          15
                                          ig
                           October 2002 SemiAnnual Report




AUDIT FOLLOW-UP— Continued
Last year, the Commission requested that the Office of Personnel Management (OPM)
authorize a new SES position for the CIO. In the interim, the Chairman appointed an
acting CIO. Completion of the first three actions listed above awaits establishment of a full
time CIO. In addition, the Commission has revised and reissued its directive on
information security and issued a new handbook on information security. However, the
Commission has not yet completed revision of its information security plan.




                                            16
                                          ig
                            October 2002 SemiAnnual Report




                                  INSPECTIONS

                             Inspection Report List
During this period two inspection reports were issued.
U.S. International Trade Commission’s Policies and Procedures Related to the
Rural Development Act (RDA) of 1972, Inspection Report, OIG-IR-01-02
(September 23, 2002) http://www.usitc.gov/oig/OIG-IR-01-02.pdf
The Treasury and General Government Appropriations Act of 2002 required the Inspector
General of each department or agency to submit a report to the Committee on
Appropriations detailing the agency’s policies and procedures to give first priority to rural
areas when locating new offices and other facilities. The objectives of this inspection were
to assess the Commission’s: (1) statutory basis for geographic office locations, (2) policies
and procedures related to RDA, and (3) plans and prospective needs for additional
geographic locations.
The OIG found the Commission has neither a policy nor procedures to ensure that rural
areas would be given first priority if additional facility locations were needed. However, the
Commission also had no plans or prospective needs for new offices or other facilities.
Further, Congress repeatedly had expressed intent that it be located in Washington, DC.
The OIG suggested that, when updating its Strategic Plan, the Commission consider
soliciting customer needs and preferences regarding the Commission’s location. The
information could be valuable not only in making the business case for locating future
offices to best meet customer needs but also in being responsive to the RDA. We also
suggested that the Chairman consider issuing an Administrative Order stating that the
Commission’s policy will be to consider rural areas as a first priority, in accordance with
RDA, in the event that the Commission ever exercises authority to locate new
offices—other than those authorized by statute in Washington, DC, and New York City, NY.
U.S. International Trade Commission’s Administration of WestlawR Legal
Research Service, Inspection Report, OIG-IR-02-02 (September 25, 2002)
http://www.usitc.gov/oig/OIG-IR-02-02.pdf
WestlawR is an online legal research service provided by West Group, a division of
Thomson Corporation. The objectives of this inspection were to review the Commission’s
(1) actual WestlawR usage in relation to the annual fixed price; (2) use of databases and
services not included in the fixed price; and (3) procedures for deactivating separating
employees’ WestlawR passwords.

                                             17
                                         ig
                           October 2002 SemiAnnual Report




INSPECTIONS—Continued
The OIG found that WestlawR usage and costs rose and fell together in the years prior to
FY 2000; however, usage cost had increased sharply and annual costs had risen
consistently since the Commission switched to the fixed price plan in FY 2000. Because
annual fixed price percent increases are based on actual usage, the projected annual fixed
price of WestlawR for the next 5 years—assuming actual annual usage remained the
same—would grow by 72 percent from $87,636 to $150,984.
The OIG suggested that (1) the Law Librarian perform a cost benefit analysis of the fixed
price plan for WestlawR. Included in the analysis should be the issue of accessing materials
through WestlawR that are also available in the Law Library, (2) the Law Librarian
institute a more formal usage cost awareness program for the 90 to 100 Commission
employees with workstation access to WestlawR, and (3) the Director, Office of
Administration, add the Law Library to the distribution list for the weekly memoranda
entitled “Report on Certain Resource Transactions.” The memoranda could serve as a
method of verifying that the passwords of separated employees were deactivated.




                                            18
                                              ig
                              October 2002 SemiAnnual Report




                                INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.

                            Summary of Investigative Activity
A summary of investigative activity is presented below.
During this reporting period, four cases were initiated and two remain open. These cases
involved alleged conflict of interest, a computer hacking, inappropriate use of Government
travel cards, and alleged Privacy Act violations.



       Case Workload                  Referrals Processed          Investigative Results
 Open (3/31/02)         2       Received              3           Referrals for
                                                                  Prosecution              1
 Initiated              3       Referred to
                                Commission            0           Referrals Declined
 Closed                 3                                         for Prosecution          1
                                Referred to other
 Open (9/30/02)         2       Federal Agencies      0           Administrative
                                                                  Action                   3
                                Evaluated but No
                                Investigation
                                Initiated             0




Privacy Act Violation
A senior ITC official accessed an ITC employee’s Official Personnel File (OPF) in the Office
of Personnel to see the other employee’s most recent performance appraisal. The senior
official was not the employee’s supervisor and did not need the OPF in order to perform
official duties. Therefore, the senior official’s accessing the employee’s OPF constituted a
violation of the Privacy Act (5 USC § 552a (b) (1)). Since the employee did not give the senior
official written authorization to access the OPF, the senior official also violated 19 CFR
§ 201.29. In addition, the senior official discussed the employee’s appraisal with one of the
employee’s coworkers. The OIG investigated the incident and provided a report of
investigation to the Chairman, who met with and orally reprimanded the senior official.

                                                19
                                          ig
                           October 2002 SemiAnnual Report




INVESTIGATIONS—Continued


Violations of Federal Travel Regulations and Misuse of Government
Travel Card
The OIG investigated allegations of potential Government Smart Pay Travel Card abuse
and false travel claims by a high-level agency official, who took 14 trips in less than one
year. Prior to completion of the investigation, the high-level agency official left the ITC.
The OIG examined the following three issues in the investigation:
       j Were the trips for official business purposes?
       j For “official business” trips, were the claimed per diem and expenses for official
         business purposes?
       j Were Government Smart Pay Travel Card charges for official business purposes
         associated with government travel?
The OIG investigation found that the high-level agency official:
       j Took five trips at a cost of $6,314.42 that were not for official business purposes;
       j Traveled to a resort location during a peak season, at a cost of $114.30, in order
         to meet with someone whose office and law practice were located in Washington,
         DC, where the ITC is located;
       j Was absent for one day of an out of town meeting for which ITC was charged for
         travel expenses;
       j Chose “luxury” accommodations while accommodations priced closer to the
         government per diem rate were available in the same hotel (total additional
         costs were $344.04);
       j Traveled without authorizations prior to certain trips and did not submit
         vouchers timely;
       j Failed to maintain receipts necessary to substantiate certain travel expenses;
       j Took a business trip that raised ethical concerns because the traveler appeared
         before a group that had a case pending before the ITC;
       j Charged to the traveler’s Citicorp Government Smart Pay Travel Card expenses
         for which (a) there was no travel authorization when the expense was incurred,
         and/or (b) the expense was unrelated to “official business travel”;

                                            20
                                         ig
                          October 2002 SemiAnnual Report




INVESTIGATIONS—Continued
       j Made five ATM cash withdrawals totaling $1,207.50 for which no travel
         vouchers associating them with “official business” travel were filed.
In response to the OIG report of investigation, the Chairman directed the ITC to seek
reimbursement from the former high-level agency official in the amount of $6,772.76. The
Office of General Counsel and the Office of Finance are involved in the debt collection
action.


Misuse of Government Travel Card
An employee used his Citicorp Government Travel Card to charge $389.39, during a period
when he had no official business travel. The employee, who said that he did not have a
personal credit card, used the Citicorp Government Travel Card to charge deposits for
personal travel reservations. He paid all charges in full.
The employee violated USITC Administrative Notice 2306 Mandatory use of a Government
Issued Travel Card, by using the Citicorp Government Travel card for personal use. He said
that he was unaware of USITC Administrative Notice 2306.
The supervisor spoke with the employee, and the employee agreed not to misuse the
Citicorp Government Travel Card again.




                                           21
                                        ig
                          October 2002 SemiAnnual Report




                           OTHER ACTIVITIES

Regulatory Review
The Inspector General Act, 5 U.S.C. Appendix, Section 4(a)(2), requires the OIG to review
existing and proposed legislation and regulations and to make recommendations
concerning the impact of such legislation or regulations on the economy and efficiency of
programs and operations administered by the Commission.
The OIG evaluates the impact that new or revised procedures will have on the economy and
efficiency of programs and operations. The OIG reviewed and commented on a draft Notice
of Final Rulemaking and draft Notice on the Handbook on Electronic Filing Procedures;
draft Directive and Handbook on the Performance Management System; draft Notice of
Request for Renewal of an OMB-Approved Collection (USITC Reader Satisfaction Survey);
and a draft Notice of Proposed Rulemaking for 19 CFR §§ 201, 204, 206 and 207.


General Accounting Office (GAO)
The Inspector General Act states that each Inspector General shall give particular regard
to the activities of the Comptroller General of the United States with a view toward
avoiding duplication and ensuring effective coordination and cooperation.
During this period, the GAO issued one report related to international trade:
       j Inspectors General Office Consolidation and Related Issues. GAO-02-575,
         August 15, 2002.
Without seeking the views of OIG customers or stakeholders, without assessing OIG
independence or effectiveness, and without examining practical or legal impediments,
GAO simply surveyed the OIG community’s opinion on whether small, designated federal
entity (DFE) OIG organizations should be consolidated into large, Presidentially
appointed OIG organizations. Not surprisingly, the smaller OIG organizations generally
opposed being consolidated, and the larger OIG organizations generally had no
comment–although those that provided comments expressed misgivings. Oddly, GAO
chose to express an opinion favoring consolidation based on little data other than the
opinion survey. GAO suggested that the ITC OIG could be consolidated with the U.S.
Department of Commerce OIG.




                                          22
                                                    ig
                                    October 2002 SemiAnnual Report




OTHER ACTIVITIES—Continued

The ITC Inspector General, on June 26, 2002, joined with other members of the Executive
Council on Integrity and Efficiency (ECIE) in providing summarized comments to GAO’s
draft report. When the final report was made available, the Inspector General, on
September 19, 2002, transmitted it to the Commission under a cover memorandum
expressing concern that GAO had narrowly framed the question, provided little data, and
ignored the Commission.



Liaison Activities

The Inspector General is a member of the Executive Council on Integrity and Efficiency
(ECIE), which consists primarily of the Inspectors General at the 34 designated federal
entities. The ECIE was established by Executive Order on May 11, 1992 and consists of
Designated Federal Entity Inspectors General and representatives of the Office of
Government Ethics, the Office of Special Counsel, the Federal Bureau of Investigation and
the Office of Management and Budget.

                                                    The Inspector General also participates in
                                                    activities sponsored by the President’s Council on
                                                    Integrity and Efficiency (PCIE), which consists
                                                    primarily of the Presidentially appointed
                                                    Inspectors General. The ECIE and PCIE have
                                                    identical functions and responsibilities to promote
                                                    integrity and efficiency and to detect and prevent
                                                    fraud, waste, and abuse in federal programs.

                                                    The Inspector General became a member of the
                                                    PCIE ECIE Human Resources Committee and
                                                    identified opportunities for the community to
                                                    cooperate and coordinate its development of core
                                                    competencies and training plans. He also
                                                    facilitated a community-wide seminar at the
Amy Comstock, Director of the Office of Govern-     Office of Personnel Management on how
ment Ethics, speaks to the OIG community in ITC’s   supervisors can address and resolve poor
Main Hearing Room. Pictured to her left are Envi-   performance by employees. The ITC provided the
ronmental Protection Agency Inspector General
                                                    setting for a similar community-wide seminar on
Nikki Tinsley and ITC Inspector General Ken
Clarke.
                                                    government ethics.

                                                      23
                                                      ig
                                   October 2002 SemiAnnual Report




                                                                       In addition to Human Resource
                                                                       Committee activities, the Inspector
                                                                       General continued to volunteer as
                                                                       an occasional guest instructor for
                                                                       the Inspectors General Auditor
                                                                       Training Institute. As a Certified
                                                                       Myers Briggs Type InstrumentR
                                                                       (MBTI) Professional, he facilitated
                                                                       a team building workshop using
                                                                       the MBTI for multiple Offices of
                                                                       Inspector General at Ft. Belvoir,
                                                                       Virginia. In addition, he taught a
                                                                       3-day workshop for multiple Offices
                                                                       of Inspector General on executive
                                                                       briefing and testimonial skills.
Inspector General Ken Clarke conducts an IGATI workshop on executive
                                                      The Assistant Inspector General
briefing and testimonial skills in the ITC Main Hearing Room.
                                                      for Audit is a member of the
                                                      Federal Audit Executive Council
(FAEC), whereby significant issues are discussed to bring about improvements in federal
programs and operations. Successful audit results are shared as well as innovative audit
techniques. In September, the FAEC discussed auditing billing issues, improving internal
OIG operations, and the status of the financial statement audit network working group.
The Counsel to the Inspector General is a member of the Inter-agency Ethics Council and
provided a monthly report to the Council on Federal Court cases involving ethics issues.
In addition, the OIG responded to a Department of Justice request regarding subpoena
authority. The OIG Counsel coordinated the program for the July 11, 2002 Interagency
Ethics Council (IEC) meeting. The IEC, a voluntary group of Federal agency ethics officials,
meets monthly to discuss current ethics issues. The program consisted of a panel discussion
looking at government credit card abuse and payment problems, as well as possible
solutions. Problems with both purchase and travel credit cards were discussed. The
speakers came from the General Services Administration (GSA), the Corporation for
National & Community Service, and the Department of Defense.




                                                         24
                                          ig
                         October 2002 SemiAnnual Report




              REPORTING REQUIREMENTS INDEX

The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
for semiannual reports.

CITATION            REPORTING REQUIREMENTS                                             PAGE

Section 4(a)(2)     Recommendations concerning the impact of such legislation or
                    regulations on the economy and efficiency in the administration
                    of programs and operations administered or financed by the
                    Commission                                                           22

Section 5(a)(1)     Description of significant problems, abuses, and deficiencies
                    relating to the administration of programs and operations          None

Section 5(a)(2)     Description of the recommendations for corrective action made
                    with respect to significant problems, abuses, or deficiencies      None

Section 5(a)(3)     Identification of each significant recommendation described in
                    previous semiannual reports on which corrective action has not
                    been completed                                                     14-16

Section 5(a)(4)     Summary of matters referred to prosecutive authorities and the
                    prosecutions and convictions which have resulted                     19

Section 5(a)(5)     Summary of each report made to the head of the establishment
                    under which information or assistance was unreasonably refused     None

Section 5(a)(6)     Listing of each audit report                                         10

Section 5(a)(7)     Summary of each significant report                                 10-13

Section 5(a)(8)     Statistical tables showing Audit Reports–Questioned Costs            26

Section 5(a)(9)     Statistical tables showing Audit Reports–Funds Put to Better Use     27

Section 5(a)(10)    Summary of each audit report issued before the commencement of
                    the reporting period for which no management decision has been
                    made by the end of the reporting period                            None

Section 5(a)(11)    Description and explanation of the reasons for any significant
                    revised management decisions                                       None

Section 5(a)(12)    Information concerning any significant management decision with
                    which the Inspector General is in disagreement                     None


                                             25
                                                       ig
                                   October 2002 SemiAnnual Report




                     Table 1
      AUDIT REPORTS WITH QUESTIONED COSTS1
                                                                                                    Dollar Value

                                                       Number of                    Questioned              Unsupported
                                                         Reports                         Costs                    Costs

A.      For which no management decision has
        been made by the commencement of the period               0                             0                       0

B.      Which were issued during the reporting period             0                             0                       0

        Subtotals (A+B)                                           0                             0                       0

C.      For which a management decision was made
        during the reporting period                               0                             0                       0

        (i)       Dollar value of
                  disallowed costs                                0                             0                       0

        (ii)      Dollar value of costs
                  not disallowed                                  0                             0                       0

D.      For which no management decision has been
        made by the end of the reporting period                   0                             0                       0

E.      Reports for which no management decision was
        made within six months of issuance                        0                             0                       0




     1 Because in FY 2002 the Commission had less than $6.5 million in contract awards—generally made to GSA Schedule
vendors—the ITC OIG did not perform contract audits that are the basis for mandatory reporting of questioned and unsupported
costs.




                                                          26
                                              ig
                             October 2002 SemiAnnual Report




                     Table 2
     AUDIT REPORTS WITH RECOMMENDATIONS
        THAT FUNDS BE PUT TO BETTER USE
                                                                        Number of   Dollar
                                                                          Reports    Value

A.   For which no management decision has been made by
     the commencement of the period                                             0       0

B.   Which were issued during the reporting period                              0       0

     Subtotals (A+B)                                                            0       0

C.   For which a management decision was made during the reporting period       0       0

     (i)     Dollar value of recommendations that were
             agreed to by management                                            0       0

     (ii)    Dollar value of recommendations that were
             not agreed to by management                                        0       0

D.   For which no management decision has been made by the end of the
     reporting period                                                           0       0

E.   Reports for which no management decision was made within six
     months of issuance                                                         0       0




                                                 27
                                         ig
                           October 2002 SemiAnnual Report




                                     GLOSSARY
The following definitions apply to the terms used in this report.


Questioned Cost              means a cost that is questioned by the Office because of:
                             (1) an alleged violation of a provision of a law, regulation,
                             contract, grant, cooperative agreement, or other agreement or
                             document governing the expenditure of funds; (2) a finding
                             that, at the time of the audit, such cost is not supported by
                             adequate documentation; or (3) a finding that the expenditure
                             of funds for the intended purpose is unnecessary or
                             unreasonable.

Unsupported Cost             means a cost that is questioned by the Office because the
                             Office found that, at the time of the audit, such cost is not
                             supported by adequate documentation.

Disallowed Cost              means a questioned cost that management, in a management
                             decision, has sustained or agreed should not be charged to the
                             Government.

Recommendation that          means a recommendation by the Office that funds could be
funds be put to better       used more efficiently if management of an establishment
use                          took actions to implement and complete the recommendation,
                             including: (1) reduction in outlays; (2) deobligation of funds
                             from programs or operations; (3) withdrawal of interest
                             subsidy costs on loans or loan guarantees, insurance, or
                             bonds; (4) costs not incurred by implementing recommended
                             improvements related to the operations of the establishment,
                             a contractor or grantee; (5) avoidance of unnecessary
                             expenditures noted in preaward reviews of contract or grant
                             agreements; or (6) any other savings which are specifically
                             identified.




                                           28
                      ig
         October 2002 SemiAnnual Report




    Special thanks to the Office of Publishing
        for the production of this report:

     Keven Blake: Cover design and photography

Pamela Dyson: Report design and composition services

      Printing Operations: Reproduction service




                        29
  If you suspect Fraud, Waste, Abuse, or other misconduct at the
       International Trade Commission, please contact us at:

                      IGHotline@usitc.gov
                               or
                  EthicsLine 1--800--500--0333
                               or
              http://www.usitc.gov/oig/oighot.htm

The EthicsLine is available 24 hours per day. The caller can remain
  anonymous. If you prefer, you may send written complaints to:

             U.S. International Trade Commission
                   Office of Inspector General
                             Room 515
                        500 E Street, S.W.
                     Washington, DC 20436

Federal employees are protected from reprisal under the provisions
of the Whistleblower Protection Act of 1989. For more information,
 see the MSPB publication entitled “Questions and Answers About
  Whistleblower Appeals”, which is available in the Main Library,
               the Office of Personnel, and the OIG.
